No. 21-

 

In THE
Supreme Court of the Gnited States

ANTHONY W. KNIGHTS,

Petitioner,
Vv.

UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,974 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 6, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
